No

20-6708
IN THE

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

mu as
TONY DECLOUES - PETITIONER, PRO SE
VS.
BURL CAIN, WARDEN
STATE OF LOUISIANA, - RESPONDENT

FILED

OCT 0 6 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

ON PETITION FOR WRIT OF CERTIORARI TO:
U.S. FIFTH CIRCUIT COURT OF APPEAL
rsr

PETITION FOR WRIT OF CERTIORARI

Respectfully submitted,

Toriy Decloues
DOC# 193085, Walnut 4
Louisiana State Penitentiary
Angola, La. 707T2

QUESTIONS PRESENTED
Question No, 1: Whether The Court Of Appeal Should Have Granted
Coa Where The District Court Employed A Constitutionally
Impermissible Standard In Evaluating The Voluntariness Of The
Confession In Direct Contradiction To This Courts Ruling In Rogers' V.
Richmond, In That The Magistrate And State Courts Consider The
Truth .Or Falsity Of A Confession In Ruling On Its Voluntariness Due
To Drug Impairment/Intoxication And Sleep Deprivation, In Violation Of
the Fifth, Sixth, And Fourteenth Amendment?
Question No. 2: Whether The Lower Court Misapplied The Strickland
Standard To The Facts Of This Case, In Violation Of Fifth, Sixth And
Fourteenth Amendment To The Constitution?

i

LIST OF PARTIES
[]

AH parties appear in the caption of the case on the cover page.

[x] All parties do not. appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:
Mr. Leon Cannizzar o,, Orleans Parish District Attor ney
1340 Poydras Street, Suite 700
New Orleans, Louisiana, 70112
There are no other parties to this action within the scope of Supreme Court Rule 29.1.
fy-U T,

S;
Tony Dee! dues

n

t)

TABLE OF CONTENTS
Table Of Authorities....... ..................................... .............. ............... ............................... iv
Que&ions Presented......................................................................................................... i
List of parties................... ............................. ................................................................... u
Certificate Oflntererted Persons....................................................................................... Vi
Request For Oral Arguments....................................... .............................. ....................... Vll
Opinions Below................................... .............................................................................. 1
Jurisdiction........................................................................................................................ 2
Constitutional And Statutory Provisions Involved........................................................... 3
Statement Of The Case........................................... ............... ........................................... 3
Statement Of The Facts..................................................................................................... 6
Standard Of Review.......................................................................................................... 9
Issue No. 1: Should The Court Of Appeal Have Granted Coa Where The District Court
Employed A Constitutionally Impermissible Standard In Evaluating The Voluntariness Of
The Confession In Direct Contradiction To This Courts Ruling In Rogers V. Richmond,
In That The Magistrate And State Courts Consider The Thith Or Falsity Of A Confession
In Ruling On Its Voluntariness.
11
Issue No. 2: Whether Hie Lower Court Misapplied The Stt-ickland Standard To The
Facts Of This Case, In Violation Of Fifth, Sixth And Fourteenth Amendments ...16
,24
Conclusion........
Proof Of Service,
.26
Appendices.........
27
INDEX TO APPENDICES
Appendix A: 7-10-20

Hie U.S. Fifth Circuit Court, of Appeal denied COA,
Tony Decloues, 5th Cir. No: 19-30501, USDC. 2:14-CV-1158.

Appendix B1 & 2: 5/30/19 U. S. District Court, Eastern Distr ict of Louisiana, Judgment
and order denying federal habeas relief. USDC No. 2:14-CV1158.
Appendix C: 3/8/19

Magistrate Report and recommendation.

Appendix D; 4/22/16

1st Or der and Judgment in U. S. District Court, Eastern
District of Louisiana denying habeas relief.

Appendix E: 5/19/17

Hie U.S. Fifth Circuit Cotut of Appeal granted in part and
denied in part COA, Tony Decloues, 5th Cir. No: 16-30579,
U.S.D.C. 2:14-CV-1158.

ill

U.S. Fifth Circuit Cotut of Appeal Per Curiam grant in part
and Vacate denial of habeas petition and remanding to the
district court. Tony Decloues, 5th Cir. No: 16-30579, U.S.D.C.
2:14-CV-1158.
RELEVANT STATE COURT DECISIONS CITED IN MAGISTRATE REPORT
Appendix F: 8/17/18

Appendix G:

2/7/14

State v. Decloues, 131 So.3d857 (Mem), 2013-1694
(La.2/7/14).

Appendix H:

3/23/11

State v. Decloues, 62 So.3d 778, 2010-1247 (La. App.
4 Or. 3/23/11).

IV

CONSTITUTION CITED
Sixth Amendment,.-.-.-.-...-...-.........-:
Fourteenth Amendment....

.....A, 8; 19
...3, 8, 19

CODES & STATUTES
28U.S.C. § 1254(1) & 1257
Supreme Court Rule 9,17.1(b), and 22
28U.S.C. §2254(e)(1)..............
28U.S.C. §2254(d)(2)..............
28 U.S .€.A J2253(e)(2}............
28 U.S.C. §1291......................
28 U.S.C.A. § 2253..................
La. R.S. 14:30.1........................

o

tttittttttttittttttttttttttttttttttttatttttttttttttttsttttstttststtttttsszsttiststtsttttttttttttztttatttis

tftettttttztceatttittt

10
10
...25
0

1-2
3

CASES Q TED
10
Catalan v. Cockrell, 315 F.3d491,493 (5th Cir. 2002).......................................
24
Chambers v. Mississippi, 410 U.S. 287,93 S.Q. 1038, 35 L.Ed.2d 297 (1973).
19
Cuyler v. Sullivan 446 U.S. 335,100 S.Q. 1708, 64 LEd.2d 333 (1980).........
10
Dowthitt v. Johnson, 230 F.3d 733,741 (5th Cir. 2000).....................................
17
Gideon v. Wainwright, 372 U.S. 335, S3 S.Q. 792, 9 LEd.2d 799....................
12
Hiti v. Beto, 412 F.2d 832 (5th Cir. 1969)..........................................................
Hill v. Johnson, 210 F.3d 481, 485 (5th Cir. 2000), cert, denied, 532 U.S. 1039,121 S.Q.
9
2001,149 L.Ed.2d 1004 (2001).
Jackson v. Derma, 378 U.S. 368,383-386,84 S.Q, 1774,1784,12 LJEd.2d 908 (1964),12
Johnson v. New Jersey, 384 U.S. 719, 729 n. 9,86 S.Q. 1772,1778 n. 9,16 L.Ed.2d 882
11
(1966).......................................................................................................................
11
Koon v. United States, 518 U.S. 81,100,116 S.Ct. 2035, 135 L.Ed.2d 392 (1996),
Lego v. Ttaoney, 404 U.S. 477,484 n.12, 92 S.Q. 619,624 n. 12,30 L.Ed.2d 618 (1972)

12
,21
Martin v. Maggie, 711 F.2d 1273 (5th Cir. 1983)............ ............... .................. .
Martinez v. Ryan, WL 912950 (3/20/12)............................................................... ....18, 19
Miranda v. Arizona, 86 S.Q. 1602,16 L£d.2d 694 (1 $66)............................... 9, 10, 24
Rogers v. Richmond, 365 U.S. 534, 81 S.Q. 735, 5 L.Ed.2d 760 (1961)............. ....11, 12
Slack v. McDaniel, 529 U.S. 473, 484,120 S.Ct 1595,146 L.Ed.2d 542 (2000).
.9
State v. Rankin, 357 So .2d 803 (La. 1978).............................................. .............
13
State v. Robinson, 384 So .2d 332 (La. 1980)........................................................
13
State v. Simmons, 443 So .2d 512 (La. 1983)........................................................
13
Trevino v. Thaler, No. 11-10189 (5/28/13)...... .....................................................
18
Strickland v. Washington, 104 S.Q. 2052, (1984)................................................ 16, 21, 23
9
United States v. Baglay, 105 S.Q. 3375 (1985)....................................................
United States v. Delgado-Nunez, 295 F.3d 494,496 (5th Cir.2002)....................
11
United States v. Griffin, 324 F.3d 330, 347 (5th Cir. 2003)..................................
10
v

United States v. Miranda, 248 R3d 434,440 (5th Cir. 2001).
y O^lCssfb
Williamsv. Taylor, 529 tfs" 362^405-0^

vi

13,15, 24
12
L.Ed.2d 389 (2000)
10

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
Hie opinion(s) of the United States Fifth Circuit Court of Appeal appear at
Appendix A to the petition and is unpublished.
Hie opinion(s) of the United States District Court, Eastern District of Louisiana,
appear at Appendix B and is unpublished.
The Magistrates Report and recommendation in the U.S. Eastern District Court,
appear at Appendix C of the petition and is unpublished.
For cases from state courts:
Hie opinion of the highest state court to review the merits on Post Conviction
appears at Appendix G to the petition and is published. La. Court of Appeal
denied writ. State v. Dgcfaues, 131 So.3d 857 (Mon), 2013-1694 (La.2/7/14).
Hie opinion of the highest state court to review the merits on appeal appears at
Appendix H to the petition and is published at State v. Dec hues, 62 So.3d 778,
2010-1247 (La. App. 4 Cir. 3/23/11).

1

.JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeal decided my case was July
10, 2020f a copy of that decision appears at Appendix A.
[X] No petition for rehearing was timely filed in my case.
The jurisdiction of this Court is invoked under U.S.C.A. Const Art 3 § 2, d. 2;
28 U.S.C, § 1254(1); Supreme Court Rule 9,17.1(b), and 22.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The United States Constitution, AMENDMENT V provides in pertinent part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private
property be take for public use, without just compensation.
The United States Constitution, Amendment VI provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by the accusation;
to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his defense.
The United States Constitution, Amendment XIV, § I provides in pertinent part:
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive my person of life,
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
(I).

STATEMENT OF THE CASE
On April 9, 2009, Tony Decloues was indicted by an Orleans Parish Grand Jury

for the second degree murder of Louis Decloues, a violation of La. R.S. 14:30.1. (R. 1).
On April 15, 2009, Petitioner was appointed counsel and entered a plea of not
guilty. (R. 4).
On June 16, 2009, a hearing was held to determine whether the Petitioner was
competent to stand trial. At the conclusion of the hearing, the trial court ruled that he was
able to underhand the charges against him and participate in his defense. (R. 20, p. 7).

3

Defense counsel filed a motion to suppress a statement given to police. On July
17, 2009, a hearing was held on the motion to suppress. (R. 21). After testimony, the trial
judge took the matter under advisement. (R. 21, pp. 4-5).
On July 21, 2009, another hearing was held to determine Petitioner's competence.
After hearing additional testimony on the matter, the trial court again ruled that Petitioner
was able to understand the charges against him and participate in his defense. (R 22, p.
10). On this same date, the trial juc|ge issued a ruling denying defense counsel's motion to
suppress the statement. The court further denied the motion to suppress the evidence. (R.
73, p. 11).
On April 20, 2010, a jury trial was held. (R 29-31). The twelve-member jury
found Petitioner guilty as charged. (R. 31, p. 120).
On April 26, 2010, the trial court sentenced Petitioner to life at hard labor, without
the benefit of probation, parole, or suspension of sentence. (R. 33). Defense counsel made
an oral motion to reconsider sentence, requesting “special consideration of the facts.” (R.
33, p. 3). The trial judge denied the motion to reconsider and defense counsel noted his
objection. (R 33, p. 4). On the same date, defense counsel filed a written motion to
reconsider sentence and a written motion for appeal. (R. 40, 43). The trial court denied
the motion for reconsideration (R 41), but granted the motion for appeal and appointed
the Louisiana Appellate Project to represent Petitioner on appeal. (R 44). Attorney Mary
Constance Hanes, of the Louisiana Appellate Project, perfected Petitioner's appeal. It was

submitted to the Fourth Circuit Court of Appeal on October 14,2010.
The state filed an answer to the appeal. Additionally, on February 1, 2011,
Petitioner filed a notice of intent to file a pro-se brief. On February 3, 2011, the appeal

4

court granted the motion and ordered him to submit his pro-se brief within 30 days. No
pro-se brief was filed.
On March 23, 2011, the Fourth Circuit Court of Appeal affirmed the Petitioner's
conviction and sentence. (Docket No. 201Q-KA-1247).
Decloues timely filed a writ of certiorari into the Louisiana Supreme Court. Said
writ was denied on February 3,2012.
After his direct appeal was exhausted, Petitioner properly and timely filed a post
conviction relief application into the Orleans Criminal District Court.
On May 14, 2013, Decloues signed for legal mail showing that his PCR.
application had teen denied by Judge Frank Marullo on May 3,2013.
He filed a Notice of Intent to Seek Writs and Motioned the Court to set a Specific
Return Date into the state district court. However, when he had not heard from the court
in a reasonable amount of time, out of abundance of caution and because he had all the
necessary documentation, he filed a supervisory writ to ensure that his federal filing times
were tolled.
On June 12, 2013, die Fourth Circuit Court of Appeal denied relief. DeCloues filed
a writ of certiorari into the Louisiana Supreme Court asking it to invoke supervisory
jurisdiction to remand to the district court with instructions to appoint counsel for full
development of his ineffective assistance of trial counsel claims. However, the Louisiana
Supreme Court denied relief with a one-word opinion.
After exhausting all of his state court remedies, he timely filed a Writ of Habeas
Corpus seeking relief into the Federal District Court, Eastern District of Louisiana. On
April 22, 2016, after considering the magistrate judge's report and recommendation and
the petitioner's objection, Judge Vance denied relief. (App. D). He filed a notice of intent
to appeal. On May 26, 2016, Decloues received notice that he had 40 days from

5

that date to perfect his appeal.
On May 19, 2017 the U.S. Fifth Circuit Court of Appeal granted in part and denied
in part COA, Tony Decloues, 5th Cir. No: 16-30579, U.S.D.C. 2:14-CV-1158. (App. E).
On August 17, 2018 The U.S. Fifth Circuit Court of Appeal issued a Per Curiam
opinion and granted in part and Vacating denial of habeas petition and remanding so that
the district court can obtain and review the video of the confession. Tony Decloues, 5th
Cir. No: 16-30579, U.S.D.C. 2:14-CV-1158. (App. F).
On March 8, 2019 the district court issued its Magistrate Report and
recommendation. (App.C).
On May 30, 2019 the U. S. District Court, Eastern District of Louisiana, entered
Judgment and order adopting the Magistrate’s recommendation and denying federal
habeas relief. USDC No. 2:14-CV-1158. (App. B1 & 2).
On July 10, 2020 The U.S. Fifth Circuit Court of Appeal denied COA, Tony
Decloues, 5th Cir. No: 19-30501, U.S.D.C. 2:14-CV-1158. (App. A).
STATEMENT OF THE FACTS
Around noon on January 10, 2009, the body of 74-year-old Louise Decloues was
found by June Jones, a family friend. Ms. Jones was checking on Ms. Decloues at the
behest of Ms. Decloues' sister, who had not been able to get in touch with her.
Ms. Jones knocked and noted that the front, door was locked, so she proceeded to
the rear of the house and entered the home through the back door. Upon entering Ms.
Decloues' bedroom, Jones discovered Louise's body with a plastic bag wrapped around
her head. Ms. Jones called 911. There were visible wounds to the victim’s body, blood on
6

the bed and the closet and dresser drawers appeared to have been rifled.
Upon the arrival of authorities, the home was sealed off until the Homicide
Division arrived. The victim was Petitioner's mother and he lived with her in the home.
Detective Randy Gant, of the New Orleans Police Department, arrived on the scene and
found Petitioner in the backyard. Gant said the Petitioner appeared agitated and tried to
leave, claiming that he did not know what happened to his mother and that he had been at
the house of a friend, Pershing Matthews, since 2:00 p.m. on the previous day, when he
had came to the house to get a saw from the shed in the backyard. Based upon this
information, Petitioner was transported to the NOPD Homicide Division for questioning.
Upon the arrival of the crime scene technicians, photographs were taken, blood
samples obtained and dusting for fingerprints. Officers collected a pair of gloves that
were hanging horn a clothesline.
Detective Giant later went to the home of Pershing Matthews and interviewed
him. Matthews denied that Petitioner had been at his house during the time frame which
Petitioner claimed.
At the station, Detective Anthony Pardo interviewed Petitioner. At approximately
5:46 p.m., Petitioner was allegedly read his rights and signed a Rights of Arrestee or
Suspect Form. He then confronted Petitioner with the fact that his alibi did not match
with the statement given by Mr. Matthews. At this time, Petitioner allegedly confessed
that he had killed his mother.
At approximately 7:15 p.m., Petitioner gave a videotaped statement in which he
confessed to murdering his mother. After giving the statement, Petitioner flowed the
detectives where he had disposed of die knife and the clothing he was wearing at the time

7

of the murder. Hie detective maintained visual sight of a red dumpster where the items
were alleged to have been discarded. A search warrant was obtained and when it was
executed, a black gym bag similar to what Petitioner had described was discovered.
The crime lab went to the dumpster and collected the evidence: a blade gym bag, a
knife with a wooden handle, a blue lock-box, a sweatshirt., sweatpants/scrub-type pants, a
white bag containing gloves, and a white bag containing newspaper. DNA testing was
requested, but never performed after Petitioner confessed.
Petitioner was transported to University Hospital for execution of a search of his
person. While at the hospital, which was around 11:00 pm., some 11 hours after die
victim's body was discovered, Detective Aucoin noticed that Petitioner's speech was
slurred.
Petitioner testified at trial that he was 55 years old and was living with his mother
at the time of her death. He explained that he walked with a limp because he had two pins
in his ankle from a 2003 injury and a hip replacement surgery in 200S. He noted that he
had been prescribed Percosets for fain, but had run out of them in January 2009.
Petitioner described his mother as loving, but that she had shown him “tough love”
due to his drug addictions. He admitted to five misdemeanor convictions for possession
of drug paraphernalia. During the month of January 2009, he was working on and off for
cadi money. He noted that on January 7,2009, he worked at odd jobs and used the money
to buy crack cocaine. He then went to his mother's house because his leg was hurting. He
took Tylenol, which his mother gave him. He then fell asleep and awoke at 1:30 a.m. due
to a nightmare.
He described his nightmare as follows: He came home from work to a house
8

which was not his mother's house and went into the bedroom, where he discovered a
woman, who he assumed was his wife or girlfriend, in bed with a man. The scales of the
dream wae like “changing channels.” He began to hit the woman and pulled her from the
bed because she did not deserve to be in his bed. He noticed that the woman had blood on
her face, which he did not want to lock at, so he went into a utility room. The next thing
he knew, he was putting some clothing in a black bag. The scene switched again and he
was at the red dumpster. At this point, Petitioner awoke from the nightmare.
He admitted to working for cadi and smoking crack over the next few days, even
stealing a saw from his mother's died to fund another crack cocaine binge. He said that he
had not slept at all since waking from his dream at 2:00 am. several days earlier until he
began talking to police officers at around 6:00 pm. on Saturday.
STANDARD OF REVIEW
Because Mr. Decloues filed his federal habeas petition after the effective date of
the Antiterrorism and Effective Death Penalty Act of 1996, federal habeas review is
governed by AEDPA. Questions of law and mixed questions of fact are reviewed under
§2254(d)(l)» and questions of fact are reviewed under §2254(d)(2). Hill v. Johnson, 210
F.3d481, 485 (5th Cir. 2000), cert, denied, 532 U.S. 1039, 121 S.Ct. 2001, 149 L.Ed.2d
1004(2001).
Before an appeal may be considered, petitioner mud: obtain a certificate of
appealability by making a substantial showing of the denial of a constitutional right. 28
U.S.C. § 2253 (c)(2). If the district court denied the claim on the merits, petitioner may
make this showing by demonstrating that “reasonable jurist would find the district court’s
assessment of [his] constitutional claims debatable or wrong.” Slack v. McDaniel, 529
9

U.S. 473, 484, 120 S.Ct. 1595,146 L.Ed.2d 542 (2000).
A state court decision is contrary to federal law within the meaning of §2254(d)(l)
if the state court applies a rule that contradicts the governing law set forth in the Supreme
Court’s cases, or the state court “confronts a set of facts that are materially
indistinguishable from a decision of [the Supreme] Court and nevertheless arrives at a
result different from [Supreme Court] precedent.” Williams v. Taylor; 529 U.S. 362, 40506, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000). Under §2254(d)(2), a state court’s factual
findings constitute “an unreasonable application of clearly established’ Supreme Court
precedent if the state court “correctly identifies the governing legal rule but applies it
unreasonably to the facts of a particular prisoner’s case.” Id. at 407-08. Hie inquiry into
unreasonableness is objective. Id. at 410-12.
Hie state court’s factual findings are presumed to be correct. 28 U.S.C. §2254(e)
(1). In order to obtain habeas relief on the §2254(d)(2) ground that the state court’s
decision was based on an “unreasonable determination of the facts in light of the
evidence presented in the state court proceeding,” the petitioner must rebut by clear and
convincing evidence the §2254(e)(l) presumption that the state court’s factual findings
are correct. See Dowthitt v. Johnson, 230 F.3d 733, 741 (5th Cir. 2000).

“[U]nder the deferential standard of AEDPA, [federal courts] review only the state
court’s decision, not its reasoning or written opinion, to determine whether it is contrary
to or a misapplication of clearly established federal law.” Catalan v. Cochwll, 315 F.3d
491,493 (5th Cir. 2002). We review the “district court’s evidentiary rulings for abuse of
discretion.” United States v. Griffin, 324 F.3d 330, 347 (5th Cir. 2003) (citing) United

10

States v. Miranda, 248 F.3d 434, 440 (5th Cir. 2001). “A district court by definition
abuses its discretion when it makes an error of law.” United States v. DeIgado-Nunez, 295
F.3d 494,496 (5th Cir.2002)(Brackets omitted) (quoting Koon v. United States, 518 U.S.
81,100,116 S.Ct. 2035,135 L.Ed.2d 392 (1996)).
In response to petitioners objection to the magistrate report and recommendation,
the district court failed however to identify and apply the standard for granting relief.
The Mag. Report does not even mention that Mr. Decloues briefed this clear
misapplication of the law in his § 2254 application. The habeas court failed to review the
claim de novo. The AEDPA limitation upon the federal courts jurisdiction does not equate
to an absolute bar to review or to grant relief upon otherwise timely and properly
exhausted constitutional claims.
REASONS FOR GRANTING THE WRIT
Question No. 1
Should The Court Of Appeal Have Granted Coa Where Hie District Court
Employed A Constitutionally Impermissible Standard hi Evaluating The
Voluntariness Of The Confession In Direct Contradiction To This Courts Ruling In
Rogers V. Richmond, In That The Magistrate And State Courts Consider The Truth
Or Falsity Of A Confession In Ruling On Its Voluntariness.
The district court employed a constitutionally impermissible standard in evaluating
the voluntariness of the confession. In Rogers v. Richmond, 365 U.S. 534, 81 S.Ct. 735, 5
L£d.2d 760 (1961), the Supreme Court held that it is impermissible to consider the truth
or falsity of a confession in ruling on its voluntariness. This decision has been adhered to
consistently and implemented in decision of the Supreme Court. Lego v. Twoney, 404
U.S. 477, 484 n.12, 92 S.Ct. 619, 624 n. 12, 30 L£d.2d 618 (1972); Johnson v. New
li

Jersey, 384 U.S. 719, 729 n. 9, 86 S.Ct. 1772M 1778 n. 9, 16 L.Ed.2d 882 (1966);
Jackson v. Demo, 378 U.S. 368, 383-386, 84 S.Ct. 1774, 1784, 12 L.Ed.2d 908 (1964);
HiU v. Beta, 412 F.2d 832 (5th Cir. 1969). In the report and recommendation, the
magistrate repeatedly recounts and relies on the state court opinions reciting Decloues
statement and trial testimony and ultimately basing there legal analysis on the truth or
falsity of die confession in ruling.
In context, it is apparent that the magistrate and state courts evaluated the
truthfulness of the details. The magistrate report makes clear that the tiuthfulness of the
confession was an - if not the deciding factor in his finding of voluntariness. Clearly the
district court violated the dictates of Rogers v. Richmond and the Court of Appeal erred
denying CDA to review the district courts erroneous opinion.
The lower court dismissed this claim based upon their belief that the last state
court finding was not “contrary to” or an “unreasonable application” of Supreme Court
precedent (See p. 10 of R&R). Further, the judge seemed to base her opinion entirely on
the state court record, which included the state appellate court's mention regarding how
Decloues was acting at his “competency hearing” and the fact that he never alleged police
coercion (See p. 9 of R&R). (Untied States v. O'Xeefe, 128 F.3d 885 (5 Cir. 1997)).
Decloues alleged police coercion in putting him in handcuffs and taking him to the police
station (taking him into custody) for questioning despite his having told them he had not
slept in days and ultimately telling them he had been using drugs throughout this time.
First, to afford the state court decision any deference based upon a competency
12

hearing held days after his statement was taken when he was arrested was ludicrous.
What bearing does his behavior at a competency hearing held days after he was arrested
have on the claim presented? Decloues alleged in his petition that he was so intoxicated
on the day he gave the statement that it negated his consent . (Miranda v. Arizona* 384
U.S. 436, 86 S.Ct. 1602, 16 LJEd.2d 694 (1966)). His demeanor at the competency
hearing days later should have had no bearing on the merits of this claim.
Decloues argued that intoxication can render a statement inadmissible when the
intoxication is of such a degree as to negate the defendant's comprehension and render
him unconscious of the consequences of what he is saying. (State v. Simmons, 443 So.2d
512 (La. 1983); and State v. Robinson, 384 So.2d 332 (La. 1980)). He acquiesced that that
“whether intoxication exist and is of a degree sufficient to vitiate the voluntariness of the
confession are questions of fact and a reviewing court will net overturn a trial judge's
ruling on the credibility and weight of the testimony relating to the voluntariness of a
confession unless they are not supported by the evidence (State v. Rankin, 357 So .2d 803
(La. 1978)).” Decloues has specifically alleged that the trial court's ruling to not suppress
the statement is not supported by the evidence if reasonable jurist would have watched
what transpired on the videotaped confession.
As a matter of fact, if one were to consider his behavior at the competency hearing
it would entail the fact that he had been in jail—in a controlled environment where drugs
were not available—for days before the he was examined, yet he was still “fidgety” even
lends more support to his claim of intoxication invalidation.
The videotaped confession of Petitioner shows that he was impaired to such a
degree that he did not fully understand what he was saying or the potential consequences
13

thereof.1 If he was confused during the video, surely it is only logical to believe that he
was in worse, or at least the same, condition, when he earlier confessed to killing his
mother Mid telling officers where the incriminating evidence was hidden.
Petitioner testified that prior to giving his statement to police he had smoked crack
practically nonstop for three days Mid had not slept at all during the 72 two hour period.
The psychologic who was asked to review his videotaped confession confirmed that
Petitioner was heavily drugged at the time of the confession. The trial judge, after
reviewing the tape during the suppression hearing, said. “It is very marginal to me, very
marginal I mean

that is not really with us.”2 (See

7/17/09 hearing transcripts, p 23). It was after seeing this tape that the judge then ordered
another competency hearing (See 7/21/09 hearing transcripts, p 11).
Was the videotape of the confession made a part of the federal record? Did the
lower court review the tape before affording deference to the state court ruling and
denying relief? There is nothing to suggest they did, as there was no mention of whether
or not Decloues, in Judge Vance's opinion, was “not really with us!”
The police officers were well aware that Petitioner was under the influence of
1 Many times, Petitioner lost his train of thought; the detectives constantly had to remind him to speak up, not
became he was speaking softly, but because he had become incoherent In the last four minutes of the 25
minute tape, Petitioner went off of the topes and rambled on until the detective had to interrupt him and

announce that the interview was over.
2 In the videotape. Petitioner can be seen moving and gesturing wildly throughout the entire event At the
beginning, when the detective was advising him of las rights, Petitioner was rolling his head around in a
circular movement like a “dnmk.” He repeated this movement at other points in the tape. More obvious is the
Petitioner's violent rocking movement throughout most of the interview;; he would lean back aid then abruptly
lurch forward toward the table in front of him. During much of this time, Petitioner would wave his arms
wildly, often times rocking from side to side. Multiple times he banged tire table for no apparent reason.
Petitioner's speech wbb Blurred throughout the taped statement Many times Petitioner lost his tram of thought;
the detectives constantly had to remind him to speak up, not became he was speaking soffly, but because he
had become incoherent. In the last four minutes of the 25 minute tape. Petitioner went off topic and rambled on
until the detective had to interrupt him and announce that foe interview was over.

14

narcotics and actually used that fact to obtain a confession despite the intoxication. When
a defendant is too intoxicated to vitiate consent, it redes of coercion of the worst kind.
Based upon all of the foregoing, Petitioner's confession should have been
suppressed, along with the evidence obtained as a result of those confessions. Since the
confession was illegally obtained, the evidence seized should have been excluded as
“fruit of the poisonous tree.”3
If one considers the actions of Decloues on the videotape, it is plausible that
jurists of reason would find that the state courts' findings were contrary to, and involved
an unreasonable application of, clearly established federal law, as determined by the
Supreme Court of the United States, i.e. Miranda v. Arizona, supra.
Under the “contrary to” clause, a [reviewing] court may grant the writ if the state
court arrives at a conclusion opposite to that readied by the Supreme Court on a question
of law or if the state court decides a case differently than the Supreme Court on a set of
materially indistinguishable fads. Williams v. Taylor^ 529 U.S. 362, 412-413 (2000)
Wherefore, the Fifth Circuit Court of Appeal erred denying that there are
enough material questions surrounding the validity of the confession to warrant
issuing a certificate of appealability, and the State Court's determination was
unreasonable in light of the federal constitution and the U.S. Supreme Court's
precedent. As such, Certiorarir should issue and the lower courts ruling

3 The lower courts’ errors in denying die motion to suppress was not a harmless error, since there was no other
physical evidence to link Petitioner to the crime. As previously stated, while evidence was obtained due to the
illegal statement, none of the evidence was tested for DNA comparison. No latent fingerprints were found on
the knife. Moreover, the police were not able to locate any witnesses in the neighborhood who had observed
Petitioner enter or leave Iris house on the night ofJanuary 9,2009, or during the day of January 10.2009.

15

overturned and the matter be remanded for further review.
Question No. 2
Whether The Lower Court Misapplied The Strickland Standard To The Facts
Of This Case, In Violation Of Fifth, Sixth And Fourteenth Amendment To
The Constitution.
Decloues maintains that the lower court cited the correct case regarding the
standard of review for ineffective assistance of counsel claims; ie, Strickland v.
Washington. And he agrees that federal review of an ineffective assistance of counsel
claim is “doubly deferential.” However, Decloues avers that the standard was misapplied
when one considers the facts of this case.
2A. Failed to Investigate/Call Corroborating Witnesses
The lower court again deferred to the state district court ruling where it held that
because Decloues testified at trial and brought up his drug usage and his relationship with
his mother, any further testimony “would be cumulative?3 (See p. 14 of R&R). As this
court is well aware, it is a given that prosecutors are constantly advising juries not to give
much credence to a defendant's testimony, as it is self-serving. And when a defendant is
the sole defense witness to make an allegation—and he has no corroborating witnesses—
a jury member will more likely than not look upon that testimony with skepticism. This is
a case where a man killed his mother to get money for drugs? There was no other defense
other than intoxieation/mental &ate. Wouldn't a competent defense attorney in this
posture at least try to interview witnesses that would corroborate his client's claim of

16

intoxication/mental state?4
Why do state prosecutors present numerous witnesses to corroborate a fact? To
bolster their point and make the allegation more believable to the jury members.
Shouldn't a defendant have the same ability to present corroborating evidence if it exists?
DECLQUES' TRIAL COUNSEL FAILED TO DO ANY PRETRIAL
INV ES TIGATION! He did not interview any of the potential witnesses that were given
to him by Decloues himself. Decloues was under the impression, right up until the time
that Defense Counsel suddenly rested, that these witnesses were going to be called.
Decloues named the witnesses who should have been called: Fire Chief Gordon
Cagnaletta, employer William Brown, and numerous neighbors of his mother. The federal
district court completely failed to address why a trial counsel in a murder case, wherein
his defenses are limited, would not even attempt to interview potential witnesses who
could corroborate his client's claim of intoxication/mental state! Surely the lower court
should have found that failure to conduct interviews was deficient performance and
moved to the prejudice prong of the standard!
Fire Chief Gordon Cagnaletta had known the petitioner and his mother since
childhood, was a family friend and since he was a public official, his testimony would
have been deemed credible. Why didn't defense counsel interview him? What possible
reasoning could defense counsel have for not even interviewing him? What of the fact
that Cagnaletta had told several of the family's friends and neighbors that, “I don't believe
that he [Tony] did it. If he did, he had to have been under the influence of drugs?’
Cagnaletta was a witness who would have given a first-hand account of the
4Qfi Gideon v. Waltwrl&tL 372 U.S. 335,83 S.Ct. 792,9 LJEd2d 799
17

substance abuse addictions the petitioner had fought since (he early 1980s, the numerous
rehabilitation facilities that DeCloues had voluntarily been admitted to and the fact that
one time the court ordered DeCloues to attend rehab. Surely this would have bolstered
Decloues' testimony of being under the influence of dugs when he committed this crime?
Why did the lower court completely disregard the validity of these aiguments?
The magistrate stated that because Decloues failed to include affidavits from the
purported witnesses, he is not entitled to relief (See p. 14 of R&R). This is an erroneous
determination when one considers that Decloues specifically requested an evidentiary
hearing at the state court level to allow him to develop the record. Neither the state court,
nor the federal district court, commented on Decloues* request for an evidentiary hearing
and his request for appointment of counsel under the auspice of Martinez v. Ryan, WL
912950 (3/20/12) and the expanded dicta announced in Trevino v. Thaler, No. 11-10189
(5/28/13).
Is the federal court going to deny Decloues' ineffective assistance of counsel claim
based upon him not obtaining affidavits when he requested assistance at the state and
federal level? Is that due process?
Decloues has been incarcerated since his initial arrest. He has been indigent the
entire time and as such, does net have the ability or resources to attempt to find the
addresses of the uncalled witnesses. Angola Inmate Counsel Substitutes, who have
completed ALL of Decloues' filings, have no Internet access and lack the resources to
search for witnesses' addresses. As a matter of fact, people on the outside, many times
with good reason, are hesitant to provide prisoners with addresses of persons who could
have been called as witnesses in their trials. This is a case where even minimal

18

investigation by defense counsel would have uncovered a wealth of information material
to Decloues1 defense. (Cf. Cuyhr v. SuWvcm, 446 U.S. 335, 343-4,100 S.Ct. 1708,17156, 64 L.Ed.2d 333 (1980)).
Since Decloues filed his PCR application AFTER Martinez was decided and he
requested an evidentiary hearing and appointment of counsel, he was entitled by Supreme
Court precedent to have counsel appointed to represent his ineffective assistance of trial
counsel because it was his “initial-collateral review” of this claim.5
There needed to be some supporting evidence pointing to the extent that
Decloues' had struggled with his drug addiction for decades! The testimony of these
witnessed would have corroborated Decloues1 claim that it had peaked. The uncalled
witnesses would have testified about the closeness his mother and he had possessed in the
past despite his crippling addiction. This was crucial when this was the only defense.
Again, the court must ask itself, “What did defense counsel have to lose by at least
interviewing these witnesses.? NOTHING! The feet is defense counsel was either too
lazy or too busy to engage in professional conduct that would have benefited his client.
2B. Failed to Raise Intoxication as a Defense
The lower court gave this claim minimal consideration. The state trial court did
not even consider this claim, finding that because the attorney did not file a pre-trial
motion asserting intoxication as a defense, the “issue is moot.” This was surely an
erroneous ruling when one considers the gist of this sub-claim: ineffective assistance of
counsel BECAUSE HIS ATTORNEY DID NOT FILE A PRE-TRIAL MOTION
5 “Without adequate representation in an initial-review collateral proceeding, a prisoner will have similar
difficulties vindicating a substantial ineffective-assistance-at-trial claim. The same would be true ifthe
State did not appoint an attorney for the initial-review collateral proceeding. A prisoner's inability to
present an ineffective-assistance claim is of particular concern because the right to effective trial counsel is
a bedrock principle in this Nation’s justice system" (quoting Martinez, supra).

19

ASSERTING INTOXICATION AS A DEFENSE!
The magistrate failed to acknowledge the fact that the intoxicated or drugged
condition of the offender at the time of the commission of the crime is immaterial, except
when where the circumstances indicate that an intoxicated or drugged condition has
precluded the presence of a specific criminal intent or of special knowledge required in a
particular crime and can constitutes a defense to a prosecution for that crime. R.S.
14:15(2). Since one of the elements of Second Degree Murder is “specific intent,”
intoxication in this case was a valid defense.
Decloues pointed the state and federal courts to numerous cases which say that
when a defendant raises a defense which actually defeat an essential element of an
offense—intoxication negated specific intent—the State must overcome the defense by
evidence which proves beyond a reasonable doubt that the mental element was present
despite the alleged intoxication. Magistrate Judge Shushan and Judge Vance completely
failed to address this jurisprudence.

The lower court judge claimed that defense counsel's failure to raise intoxication
as a defense “relates to trial strategy and was not unreasonable” (See p. 15 of R&R).
Decloues adamantly disagrees with this assessment. HOW GAN IT BE CONSIDERED
REASONABLE TRIAL STRATEGY TO NOT OBTAIN EVEN ONE PAGE OF
DECLOUES’

EXTENSIVE

MENTAL

HEALTH/SUBS TANCE

ABUSE

TREATMENT RECORDS?6
6 The following records were obtainable with only minimal investigation: a court ordered stay at foe
Veteran's Hospital in New Orleans in 1980; stays in The Bridge Home in New Orleans and The Salvation
Army in Jefferson Parish for his addictions.; involuntary commitment to foe psych ward of Charity Hospital
after an unsuccessful suicide attempt; placement in Blue Walters in Jackson, Louisiana; admitted to the
Salvation Army's Harbor light facility in Houston in 1990; a 1993 stay at Shoulders, a rehab facility, a 1995
stint at Star of Hope Men’s Rehabilitation Program; a 1997 admittance to Victory House, another rehabilitation

20

Decloues presented the fact that in Martin v. Maggio, 711 F.2d 1273 (5th Cir.
1983), the Federal Court found that Martin’s counsel failed to conduct a reasonably
substantial investigation into the intoxication defense because they had chosen to rely on
another defense at trial. Decloues agreed that although Martin’s counsel was deficient in
this sense, the court ruled that he was not ineffective in Martin's case because Martin did
not prove that this deficient performance “worked to his actual and substantial
disadvantage”, ie, no prejudice because he had another defense. Strickland, supra Id. At
1258. The Maggio court said, “If a review of the record convinced us that counsel had
relied on unreasonable assumptions or strategies in deciding not to pursue the defense, a
finding of ineffective assistance would be warranted.” Maggio; quoting Strickland at
1256.
That is exactly what Decloues is alleging. HE HAD NO OTHER DEFENSE!
Although the defendant is not required to prodice evidence to which he is unlikely to
have access, if there is evidence that could have been uncovered in his favor through

adequate representation, he can prevail on a claim of ineffective assistance of counsel.
Strickland at 1262. Again, Decloues was not afforded an evidentiary hearing by any state
or federal court.

Hie bottom line is that Decloues was a known crack addict. DeCloues had been on
a crack cocaine and heroin binge—shooting heroin intravenously, smoking hundreds of
dollars worth of crack cocaine, while also drinking and taking the painkiller Percocet—in
the days leading up to the death of his mother with no sleep. It is no wonder that DeCiues
program aimed at helping addicts overcome their addictions; a 2007 stay at the Jefferson Parish's Salvation
Anny rehabilitation program undo- the guidance of Ms. Willie Fay Lane. These records would have supported
a defense of intoxication by showing Decloues’ suffered with chemical addictions and dependency for decades.

21

described his psychotic episodes as being in a dream-like state with die cocktail of drugs
being mixed in his system!
Trial Counsel failed to obtain DeCloues' extensive mental health records and the
records from the many rehabilitation facilities where he was treated. This was not a first­
time dug user, but a man who had been plagued with these addictions for decades.
When one considers the extensive medical records that could have been
subpoenaed, it was neither plausible or reasonable for the federal district court to
conclude it was “trial strategy.” Intoxication was a viable defense, and, if defense counsel
would have presented defendant’s past drug abuse/mental health history, the claim could
have been supported by the records. This would have allowed die jury to consider the
option of finding that the Petitioner did not possess specific intent which is necessary to
convict the Petitioner of Second Degree Murder and there was a distinct possibility that
they would have returned a manslaughter verdict, which would have prevented a life
sentence. The judge would have determined a sentence of between 0 and 40 years for the
crime, which is a substantial difference than the mandatory life sentence without parole
meted out to DeCloues after being convicted of second degree murder.
It is obvious that the failure of trial counsel to raise intoxication, or at least bolster
the intoxication defense by subpoenaing the records,7 was deficient performance. The

prejudice is evident when one considers the language found in Maggio; the facts of this
7 Judge Shushnn implies that because Dedoues' testimony “was entirely centered around his intoxication as a
defense,” defense counsel was nosing intoxication as a valid defaise (See p. 15 ofR&R). But Magistrate
Shushnn failed to take into consideration the last reasoned state court ruling wherein they found the issue
was moot because defense counsel foiled to file a pre-trial motion notifying the court that they were going
to utilize intoxication as a defense! Thus, the state court did not even consider this claim and the ruling is
not entitled to any deference.

22

case and the Maggio case differ because Decloues had no other defense.
Finally, did Judge Vance consider the fact that the question of ineffective
assistance of counsel is a cumulative one? It is not proper to divide each issue up
in an effort to “conquer” it; rather, this court must review the totality of the
circumstances and the cumulative effect of counsel’s lapses. See Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 2066, 80 L.Ed.2d 674 (1984). When
one considers the things that Decloues1 defense counsel failed to do—which could
have been accomplished with minimal effort—there can be no doubt that the
assistance of counsel was deficient and prejudicial; ie, the cumulative effects of
counsel’s lapses are so egregious that his performance has to be considered
deficient and prejudicial, as counsel failed to protect his client's Sixth and
Fourteenth Amendments.
The lower court’s “determination” of facts from the evidence before it was
objectively “unreasonable” because; 1). The court ignored record evidence supporting the
petitioner’s contentions; 2). Hie court reached conclusions based cm inferences not
supported by the record evidence; 3). The court’s erroneous “decision” denying relief on
petitioner’s constitutional claims “resulted” from an objectively “unreasonable
determination of the facts ..
Conclusively Mr. Decloues was denied effective assistance of counsel, due process
and a fair trial.

23

CONCLUSION
Mr. Decloues acting pro se reasonably articulated the factual basis of his claims,
and the lower courts read him the law - without reasonably applying it to the facts of his
case. The conviction and sentence in this case is unjurt and wrong.
Under die umbrella of Miranda, supra, Decloues had a constitutional guarantee to
waive his right against self-incrimination “knowingly” aid “voluntarily” The supporting
record, including the video tape of the inculpatory statements, prove beyond a doubt that
Decloues was unable to make a “knowing waiver” when the court considers all of the
surrounding circumstances, ie; defendant's characteristics, conduct of the law
enforcement officials, and the defendant's mental state [See CotmeU# supra].
The facts of Taylor's, supra, and Decloues' cases are identical. The remedy should
be the sane: Decloues' conviction and sentence should be overturned and remanded bade
to the state district court with instructions to proceed in a manner consistent with this
court's findings.
In Chambers v. Mississippi,, 410 U.S. 287, 93 S.Ct. 1038, 35 L.Ed.2d 297 (1973),
the Supreme Court held the right of an accused in a criminal trial to die process is, in
essence, the right to a fair a fair opportunity to defend against the state’s accusations. The

rights to confront and cross-examine witnesses and to call witnesses in one’s own behalf
having long been recognized as essential to die process. To secure these rights, this court
applying firmly held United States Supreme Court precedent, require reviewing courts to

24

evaluate the evidence that way presented supporting a claim counsel was ineffective.
The constitutional claims were not fully and fairly adjudicated and reasonable
jurists would find the Court of Appeal's assessment of the constitutional claims debatable
or wrong. Petitioner suggests he has presented questions of constitutional substance that
adequately deserve encouragement to proceed further. 28 U.S.C.A.§2253(c)(2).
WHEREFORE the lower courts erred denying COA, this Honorable court may
grant certiorari or remand to the U.S. Fifth Circuit for further proceedings.
Respectfully submitted on this

day of i>Uc~b£(2- . 2020.

Tony Decloues
D.O.C. # 193085, Walnut 4
Louisiana State Penitentiary
Angola, Louisiana 70712

25

